<html>
<title> - BORDER SECURITY: MOVING BEYOND THE VIRTUAL FENCE</title>
<body><pre>[Senate Hearing 111-1051]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1051
 
            BORDER SECURITY: MOVING BEYOND THE VIRTUAL FENCE

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
57-327                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
                         Troy H. Cribb, Counsel
              Blas Nunez-Neto,  Professional Staff Member
                 Nicole M. Martinez, Research Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                Matthew L. Hanna, Minority CBP Detailee
              Molly A. Wilkinson, Minority General Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator McCain...............................................     3
    Senator Burris...............................................    14
Prepared statements:
    Senator Lieberman............................................    33
    Senator McCain...............................................    36

                               WITNESSES
                        Tuesday, April 20, 2010

Hon. Alan D. Bersin, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............     5
Hon. Dennis K. Burke, U.S. Attorney, District of Arizona, U.S. 
  Department of Justice..........................................    17
Hon. Octavio Garcia-Von Borstel, Mayor, City of Nogales, Arizona.    20
Larry A. Dever, Sheriff, County of Cochise, Arizona..............    23

                     Alphabetical List of Witnesses

Bersin, Hon. Alan D.:
    Testimony....................................................     5
    Prepared statement...........................................    57
Burke, Hon. Dennis K.:
    Testimony....................................................    17
    Prepared statement...........................................    67
Garcia-Von Borstel, Hon. Octavio:
    Testimony....................................................    20
    Prepared statement...........................................    79
Dever, Larry A.:
    Testimony....................................................    23
    Prepared statement...........................................    86

                                APPENDIX

Tucson Weekly Articles submitted by Senator McCain...............    38
Photograph submitted by Mr. Garcia-Von Borstel...................    56
Richard M. Stana, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office, statement for the Record    89
Responses to questions for the Record from Mr. Bersin............   102


            BORDER SECURITY: MOVING BEYOND THE VIRTUAL FENCE

                              ----------                              


                        TUESDAY, APRIL 20, 2010

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, Burris, and McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I thank 
everybody for being here.
    This is the third hearing our Committee has held to review 
America's border security programs in the wake of the stunning 
increase in violence caused by the Mexican drug cartels. In 
fact, and by coincidence, it was a year ago today that our 
Committee held a field hearing in Arizona--with some of the 
same witnesses who are on our second panel.
    I regret to say that in the year that has passed, the 
situation has continued to deteriorate. Since 2006, more than 
22,700 people have been murdered in Mexico by narco-terrorists 
in the ongoing war between the cartels and the cartels and the 
government. That number comes from a Mexican Government study. 
It is a multiple--22,700--of the number of Americans killed in 
the wars in Iraq and Afghanistan since 2001.
    The pace of the murders unfortunately has been steadily 
escalating: 9,635 murders in 2009, an increase of 50 percent 
over the already unprecedented level in 2008 and three times 
the 2,837 killed in 2007--Mexican President Felipe Calderon's 
first year in office.
    These statistics are of grave and great concern to the 
United States, as they are to Mexico and its strong and 
courageous President. I greatly admire his unwavering 
commitment to rid his country of the plague of narco-terrorism.
    In the past year, the Mexican Government has arrested or 
killed literally scores of leading cartel figures, including 
Arturo Beltran-Leyva, known as the ``boss of bosses,'' in 
December.
    But as cartel leaders are taken out, the violence seems to 
increase as the cartels fight amongst themselves for the 
remaining pieces of the narco-trade. The obvious fact is that 
we have to do everything in our power to support our southern 
neighbors in the historic battle they are currently waging 
against the cartels.
    And we have to be vigilant on the American side of the 
border because there are deeply troubling signs that the 
cartels and other smuggling groups are becoming more willing to 
bring their violence across the border and inflict it on U.S. 
citizens.
    In the past month alone, as you know, three separate 
incidents have drawn our attention, concern, and anger: A 
pregnant U.S. Consulate employee, her husband, and the Mexican 
husband of another Consulate employee were all gunned down in 
Juarez as they left a children's party; the U.S. Consulate in 
Nuevo Laredo was attacked with an improvised explosive device 
(IED), which is a term we normally hear used with regard to the 
terrorist attacks against us and our allies in Iraq and 
Afghanistan; and then, of course, a well-known and much 
respected and beloved rancher in Arizona was murdered on his 
own property. All this follows the murder of an on-duty Border 
Patrol agent last year.
    So the bottom line before our Committee today is what can 
the Federal, State, and local governments do together to 
control violence in Mexico, on the border between the United 
States and Mexico, and violence and other illegal behavior that 
will flow over the border into our country.
    That brings me briefly to highlight a focus of this 
hearing, which is our efforts to use technology to control the 
border. When the ``virtual fence,'' or SBInet project, was 
first launched, we were told that it would be extended across 
our entire Southwest Border--that is nearly 2,000 miles--by 
early fiscal year 2009.
    Well, it is now, of course, April 2010, almost 4 years 
after SBInet began and $770 million has been spent directly on 
it, and we are still waiting on the testing of the first 23-
mile stretch of SBInet, which will be in the Tucson Sector. 
That is it.
    By any measure, SBInet has been a failure--a classic 
example of a program that was grossly oversold and has been 
badly underdelivered.
    When SBInet first started, U.S. Customs and Border 
Protection (CBP) seems to have effectively told Boeing, the 
contractor, ``Go ahead and do what you can do as quickly as you 
can.''
    Without clear goals and expectations, both CBP and Boeing 
underestimated the complexity of building the system, I 
believe. And the Border Patrol agents themselves--the people 
who would be relying on and implementing the system every day--
were not, in my opinion, adequately consulted on what their 
actual needs were.
    I am also troubled that the program office responsible for 
SBInet is heavily dependent on contractors, weakening CBP's own 
organic capability to manage the program and ensure capability.
    And, of course, the structure of the SBInet contract--one 
overarching contract to a single contractor--means that CBP 
does not get the benefit of competition for individual tasks 
undertaken for the SBInet program.
    From the beginning of SBInet, CBP's reports to Congress 
read like a quest to find that mystical point where parallel 
lines finally meet: It is always just over the horizon, but you 
never actually get there.
    We have to get there. Our Committee staff visited the 
Tucson Sector over the recess, and once again, they heard, ``We 
are almost there.''
    I do not think the Members of the Committee will believe 
that we are there until we are actually there and we can see so 
with our own eyes.
    I am pleased that Secretary Napolitano has ordered a long 
overdue internal review of the SBInet program, which will 
consider its long-term viability and determine whether there 
are technological alternatives to providing better border 
control.
    I welcome CBP Commissioner Alan Bersin today. In some sense 
maybe on this occasion he is fortunate that it took a long time 
to get him into office because he is not accountable for any of 
the delays that I just described, but now he has the 
responsibility, of course, to end them, and I look forward to 
his testimony and the questioning that will follow.
    We are also honored to have a second panel of witnesses 
from Arizona to bring our Committee a firsthand, from-the-
ground, local perspective on this crisis, which is a homeland 
security crisis.
    I am honored to be joined as Ranking Member today by 
Senator John McCain of Arizona. He has an obvious interest in 
this crisis because it so disproportionately affects the people 
of Arizona. He has been a persistent advocate for better border 
security and urgent action to deal with the violence now 
pouring over the border into the United States, and I am proud 
to call on him now for an opening statement.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Well, thank you, Mr. Chairman, and, again, 
I thank you for holding this hearing--you and the Ranking 
Member, Susan Collins. This is an important hearing.
    As you mentioned, it was exactly 1 year ago today that we 
had a hearing in Phoenix, and it was at that time that we 
called for the dispatch of 3,000 National Guard troops to the 
border. And, unfortunately, as our witnesses will testify, we 
are seeing an increase in violence. The situation has not 
improved. We are seeing serious spillover violence that affects 
Americans living near the border.
    Mr. Chairman, I have three articles that I would like 
included in the record.\1\
---------------------------------------------------------------------------
    \1\ The articles submitted for the record by Senator McCain appear 
in the Appendix on page 38.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Senator McCain. They are titled ``The Chiricahua Corridor--
Drug-trafficking and crime victimize residents and destroy the 
environment along the Southern Arizona-New Mexico border;'' 
``Luck and Fear--A border-area home invasion has forced 
residents to take action;'' and ``Chico and the Monkey--How 
many times were a border coyote and his accomplice captured and 
released by law enforcement? Would you believe 35?''
    These are all very interesting articles that I hope all of 
my colleagues would take the time to read so they can 
understand how serious and uncontrolled our border situation 
is.
    As you mentioned, just last month, three Americans were 
killed on the Mexican side of the border, and a third-
generation Arizona rancher was found dead on his property near 
the Mexican Border, reportedly shot by a suspect that may have 
entered our country illegally. Interestingly, last week the 
L.A. Times reported that more than 22,000 deaths in Mexico 
during the past 3 years occurred because of drug violence with 
the cartels--22,000 Mexican citizens.
    The violence is increasing and impeding the everyday life 
and the peace of mind of our citizens in the border region. 
Some believe that they are living in a lawless land where there 
is little or no consequence for the violation of their land, 
property, and well-being.
    The President's most recent budget, unfortunately, seeks to 
cut 181 Border Patrol agent positions. Inexplicable. 
Inexplicable. This comes after the number of Border Patrol 
agents already declined between fiscal year 2009 to fiscal year 
2010.
    As all the witnesses know today, the Border Patrol in the 
Tucson Sector accounts for almost 50 percent of all illegal 
immigrant apprehensions across the country. Specifically, in 
fiscal year 2009, the Border Patrol in the Tucson Sector 
apprehended 241,453 individuals--the size of the population of 
Reno, Nevada. And we will hear from our witnesses what 
proportion are not apprehended. Some say three times, some say 
five, but regardless, that number is astonishing.
    The Tucson Sector also accounts for 50 percent of all the 
marijuana seizures in the Nation. In fiscal year 2009, the 
Border Patrol seized more than 1.3 million pounds of marijuana 
in the Tucson Sector alone--the first time any Border Patrol 
sector had ever seized more than 1 million pounds of marijuana 
in one fiscal year. Additionally, 90 percent of the cocaine 
used in the United States comes through Mexico, and much of it 
is smuggled through Arizona, right up the I-10 highway. So it 
is for these reasons that in fiscal year 2009, 73 percent of 
the District of Arizona's criminal filings involved either 
immigration or drug charges.
    As you know, Mr. Chairman, yesterday Senator Jon Kyl and I 
released a 10-point border security action plan that calls for 
3,000 National Guard troops to be sent to patrol the Arizona-
Mexico Border, 3,000 additional Border Patrol agents to the 
border, 24-hour-a-day surveillance by Predator B Unmanned 
Aerial Vehicles (UAVs), and construction of a fence that truly 
deters illegal entries, among other issues.
    I hope the hearing today will highlight the outstanding 
work that our State and local officials are performing to 
provide for the safety of Americans, despite the inability of 
the Federal Government to secure the Southwest Border from the 
flow of drugs, money laundering, and illegal immigration. In 
our second panel, we will hear from the Mayor of Nogales, 
Arizona; the Sheriff of Cochise County, Larry Dever, who deals 
with these issues on a day-to-day basis; and our U.S. Attorney, 
Dennis Burke, who has increased the number of border-related 
prosecutions, I am happy to say.
    Finally, Mr. Chairman, on SBInet, it is a disgraceful 
failure. At least $800 million so far has been wasted. Think of 
how that money could have been spent to try to improve our 
border security. There has been a lack of oversight; there has 
been a lack of accountability. And by most reports, this 
virtual fence, which has already consumed hundreds of millions 
of dollars of taxpayers' money, has been a complete failure.
    I will look forward to hearing from Commissioner Bersin on 
this issue, along with other border security issues.
    Again, I thank you for holding this hearing.
    Chairman Lieberman. Thank you, Senator McCain.
    Commissioner Bersin, I am glad to welcome you here for your 
first appearance since you assumed the responsibilities of this 
critically important office. We look forward to working with 
you as the oversight Committee for the Department of Homeland 
Security (DHS), and we would invite your testimony at this 
time.

TESTIMONY OF HON. ALAN D. BERSIN,\1\ COMMISSIONER, U.S. CUSTOMS 
  AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Thank you, Mr. Chairman. Good morning, Senator 
McCain, Senator Pryor, Senator Burris, and staff. I appreciate 
this opportunity to return to testify before the Senate. I had 
many years, earlier years, in the 1990s, in which I watched the 
border from my home and the place where I worked in San Diego. 
And as I have come back during the past year, I understand that 
we face many of the same problems, but we have many more 
opportunities because of the resources and the support that the 
Congress and, in particular, this Committee have provided to 
Customs and Border Protection. I take the reins at CBP with 
honor and pride, and I understand that I am accountable to our 
people and to this Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bersin appears in the Appendix on 
page 57.
---------------------------------------------------------------------------
    The Committee indicated it wishes to hear from me on three 
subjects:
    The status of border security efforts--and that is our No. 
1 priority, to protect the American people and our border 
communities from violence--to assure public safety, and to 
assure security on the border.
    Second, the Committee wishes to hear about the status of 
our efforts in support of the Government of Mexico. As the 
Chairman noted, there has been a historic reversal of the past 
in terms of President Calderon's efforts, and I will be pleased 
this morning to report on efforts that CBP and DHS and the 
other elements of the U.S. Government have provided to 
President Calderon.
    The third is to review the theory of action of our border 
security to go back over what the original theory was with 
regard to personnel and infrastructure and technology, with 
specific reference to SBInet, its current status, and the 
future prospects.
    A year ago, actually beginning in the last quarter of 2008, 
the American people became aware of something that had actually 
started with the ascension to power of President Calderon in 
2006. We discovered--and it hit our front pages--the kind of 
violence that has now escalated to the point where--as Senator 
McCain and the Chairman noted--an estimated 22,000 Mexicans 
have died as cartel takes on cartel and as the Mexican 
Government for the first time in its history takes on Mexican 
organized crime.
    In March 2009, Secretary Napolitano--no stranger to the 
border--announced the Southwest Border Initiative that had 
three basic goals:
    One was to see that the violence that was occurring in 
Mexico would not spill over in the same form and with the same 
frequency and the same devastating impact that it was having in 
northern Mexico.
    The second goal was to reduce the movement of contraband 
and illegal crossings across our border in the Southwest.
    And the third was to support Mexico in its campaign to 
crack down on cartels through technical assistance, through 
intelligence sharing, and through support on our side of the 
border of the operations that were taking place south of the 
border.
    Significant resources were deployed to the border in terms 
of personnel, in terms of technology, non-intrusive inspection 
technology and X-ray machines, in terms of intelligence 
analysts, and in terms of redirected Stonegarden funds. As the 
Chairman and Senator McCain noted, support and partnership with 
our State, local, and tribal partners is absolutely essential 
to the Federal strategy on border security.
    The results of the Southwest Border Initiative: We saw 
significant decreases in illegal crossings, and while this was 
attributable in some material part to the economy and the 
recession that we have experienced, both in North America and 
worldwide, it also reflected a heightened enforcement posture 
by the increase of Border Patrol agents that brought our total 
level of agent strength to 20,000 Border Patrol agents, an 
increase of 100 percent since 2004, and an increase, I should 
say, of 7\1/2\ to eight times from what it was when I last 
worked with the Border Patrol in the 1990s.
    The statistics with regard to seizures of contraband, of 
narcotics, are set forth in the written testimony, and I will 
leave the staff in the Senate to refer to that testimony for 
the specific statistics.
    With regard to the violence situation, we have two 
reports--one that is cautious in its optimism, but also in its 
recognition that vigilance is required; and a second that is 
not optimistic, but reflects the kind of tragedy that we saw in 
the murder of Robert Krentz, a rancher in Arizona.
    The kind of violence that we have seen in Mexico, the 
shoot-outs in the plazas, the 200-day death toll in Ciudad 
Juarez that has converted that city into the most dangerous 
city in the Western Hemisphere, we have not seen in the United 
States in terms of mass impact. We are geared to prevent and to 
deter that impact from coming across our border. That is not to 
say, Senators, that we have not seen significant and disturbing 
trends of increased violence attributable to organized crime 
activities based in Mexico. We have, and we do, and we take it 
very seriously.
    The murder of Mr. Krentz was the most recent incident in 
which an American citizen on our side of the border was the 
victim of organized criminal violence based in Mexico. 
Secretary Napolitano took very direct action in responding to 
that murder. Additional Border Patrol agents were deployed in 
the Douglas Station area of the Tucson Sector. We saw an 
immediate dispatch of air and marine assets to help track the 
suspected murderers, and we have reason to believe they did 
move back into Mexico. The investigation continues, not only 
with Sheriff Dever in Cochise County, but also with Federal and 
State investigators, and we are also working with our Mexican 
colleagues. Secretary Napolitano wanted me to assure this 
Committee that she is committed to seeing that this murderer is 
apprehended and prosecuted to the fullest extent of the law.
    We also see--and it is disturbing--the killings of American 
citizens and people connected to the Consulate in Juarez. The 
Committee asks whether that or the use of an IED against the 
Consulate in Nuevo Laredo represents a change in the cartels' 
approach to targeting or challenging U.S. law enforcement and 
U.S. personnel abroad. Senator, that inquiry continues, but we 
take that threat very seriously, and it would constitute a 
change in the way in which the cartels have operated with 
respect to U.S. law enforcement officials or U.S. officials 
stationed abroad.
    Last, in terms of the relationship with Mexico, I can tell 
you from having returned to the border that indeed the future 
is not what it used to be with regard to our relationship with 
Mexico. Whereas the border used to be a place where U.S. law 
enforcement stopped and where sovereignty was still respected, 
the fact of the matter is that cooperative relationships with 
Mexico are at a level and at a depth that we have never seen 
before. This stems both from President Calderon's recognition 
of the extent to which organized crime has tainted Mexican 
politics and society and from the recognition by President 
Obama, Secretary Napolitano, and her colleagues in the Cabinet 
that we share a co-responsibility for the situation on the 
U.S.-Mexico Border, and that, in fact, the cycle of drugs 
coming north and guns and cash going south are part of one 
organized vicious cycle of crime and criminality that we have a 
joint responsibility to confront. And I am pleased to report to 
you, Mr. Chairman and Senators, that we have confronted that in 
cooperative ways not seen before. Let me give you three 
examples.
    One is the extent to which we at CBP focus on the 
southbound movement of cash and guns. We have created an 
Outbound Programs Division in our Office of Field Operations. 
We have dedicated the resources. We have instituted the checks 
that look not only at people and things, cargo and goods coming 
north, but people and things going south. The result of that in 
concert with Immigration and Customs Enforcement has been an 
unprecedented level of seizure both of cash and also of 
weapons.
    We have also seen for the first time in the history of the 
U.S.-Mexican Border the dispatch and the deployment of Federal 
police in Mexico in the Sonora area at Nogales to coordinate 
with the U.S. Border Patrol. This creation of a communication 
north and south of the border holds out great promise and 
indicates something that would have been unthinkable even 5 
years ago.
    On the prosecution front, we see our prosecutors--and Mr. 
Burke will be able to describe this with greater specificity--
cooperating with the Attorney General of Mexico (PGR) to 
actually share prosecution authorities or responsibilities to 
see to it that law breakers are punished, whether in American 
courts and now in certain cases in Mexican courts.
    With regard to personnel, infrastructure, and technology, 
we have increased Customs and Border Protection to where we 
have now almost 58,000 employees. We have 20,000 Border Patrol 
agents and 24,000 field officers. We also have built the 
infrastructure that Congress asked us to do with regard to the 
fencing across the U.S.-Mexican Border. On the advice of Border 
Patrol and the professionals who live and work there, we have 
met in all material respects the obligations placed on the 
Department of Homeland Security with regard to the fence.
    And last, Mr. Chairman and Senators, with regard to SBInet, 
as you know, when Secretary Napolitano came into office, 
because of her experience as the Governor of Arizona, she 
understood that the promise of the virtual fence from 
Brownsville to San Diego had not delivered and was not anywhere 
near being able to deliver. As a result, as you know, she 
ordered a midterm assessment and ordered some immediate steps 
with regard to funds under the American Recovery and 
Reinvestment Act (ARRA).
    What the Secretary ordered--and it has taken place--was a 
reallocation of those funds under ARRA to see to it that we 
would not continue to spend on the Block 1 technology but, 
rather, use those funds to purchase and deploy technology at 
the border that had been trusted and tried by our Border Patrol 
agents and field officers, and that has been done with regard 
to the $50 million, and I will be pleased to answer the 
Committee's questions with regard to the specific allocation 
among the variety of devices that have been long in use on the 
U.S.-Mexican Border and have proven their value.
    The Secretary also started a science-based assessment that 
is underway that will look at sector by sector across the U.S.-
Mexican Border what mix of technology will best serve our 
agents on the ground and our communities at the border. And I 
would say that while the news regarding the wholesale 
integration at a border-wide level has proven to be beyond the 
capacity of the contractors and beyond the capacity of CBP to 
date, there are elements in the Block 1 technology that we 
would urge this Committee and its staff to work with us to see 
whether it actually functions in a way that can be integrated 
with a placement and a deployment of technology across the 
border so that, in fact, SBInet technology, if not the SBInet 
system as originally envisioned, would actually have a place as 
we move forward.
    Mr. Chairman, I thank you again for this opportunity and 
look forward to responding to the Committee's questions.
    Chairman Lieberman. Thanks very much, Commissioner Bersin. 
We will have 7 minutes for each of the Senators on this round.
    Let me begin my questioning, Commissioner, and I want you, 
just as briefly as you can for the benefit of those in the room 
and those who may be watching or listening, to contrast two 
things you said that are of interest to the Committee. The 
first is that, in your estimation--and you are fairly new at 
CBP--the Federal Government has met all of its obligations, you 
said, with regard to the fence along the border. Contrast that, 
if you will, with what everyone, including you, I gather, views 
as the failures of the SBInet virtual fence system.
    Mr. Bersin. Mr. Chairman, the fence is an element of 
infrastructure, and what we did, beginning actually back in the 
Clinton Administration with regard to the old landing-mat 
fence, and then carried forward with the resources provided by 
Congress as the fence of approximately 700 miles--just about 
675 miles to be more precise--was built, was very much more 
governed by differential terrain and differential 
circumstances. And the theory of the fence was to provide our 
Border Patrol agents with an opportunity, depending on the 
different terrain, to be able to respond to incursions.
    Chairman Lieberman. And what areas is that generally 
present in now?
    Mr. Bersin. It has been effective with regard to the 
different kinds of fences that have been built. So, for 
example, around ports of entry, you will see pedestrian fences 
of 15 feet or greater that will actually keep people from 
scaling the fence and moving into a town or a city in which 
they can then blend into the population and escape from 
apprehension.
    Out in the middle of the desert, different kinds of 
infrastructures are required, largely to prevent the movement 
of vehicles across a flat terrain.
    So I think what we have seen is a successful implementation 
of this differential application of infrastructure.
    Chairman Lieberman. Now, contrast that with the SBInet. 
That was intended as a back-up or to cover the whole border in 
a kind of virtual fence?
    Mr. Bersin. The SBInet is a system that was to give us 
through a combination of video and radar an ability to both 
detect incursions on a screen and to identify the kind of 
incursion--the kind of person, the kind of car, and the number 
of people. And, in fact, Block 1, while the assessment is still 
going on, has shown some promise in being able to do precisely 
that.
    What has not worked is the total integration of technology 
from each of the areas along the border into an overall system 
that would permit central monitoring and control. That 
technology integration at the very broadest level has been the 
complete failure that the Committee describes.
    Chairman Lieberman. So that is a helpful clarification. I 
presume you would not say that the combination of the fence and 
the virtual fence of SBInet, whatever parts of it are working, 
are stopping the flow of illegal immigrants from Mexico to the 
United States today.
    Mr. Bersin. No. It has not sealed the border such that 
there is no illegal movement.
    Chairman Lieberman. Right. So there continues to be illegal 
movement in and out, as it were. Do you have any relevant 
statistics, estimates--and this is a hard thing to do, I know, 
because of all the vagaries of making judgments like this since 
we are talking about essentially--of obviously illegal 
behavior?
    Mr. Bersin. In terms of the number of crossings?
    Chairman Lieberman. Yes. Has the number gone up? Has it 
gone down? There has been some theory that it may be going down 
because the economy is worse here.
    Mr. Bersin. The statistics, which are set forth in full, 
Mr. Chairman, in the testimony, indicate that in fiscal year 
2009, we saw and encountered at the ports of entry 224,000 
inadmissible aliens at the port of entry, and we apprehended 
more than 556,000 between the ports of entry, approximately in 
total 580,000 illegal or attempted illegal crossings.
    In fiscal year 2010 to date, we have seen 113,000 aliens at 
the ports of entry and 245,000 between the ports of entry, 
somewhat greater but basically the same level.
    Chairman Lieberman. Still significant. Still about the same 
as the year before.
    Mr. Bersin. But compared to 2008 and 2007, we saw a decline 
in the apprehensions between the ports of 23 percent, more than 
167,000 apprehensions.
    Chairman Lieberman. So let us go back to SBInet. You have a 
reputation for being a tough law enforcer and manager. Did I 
correctly infer, as I heard you talking about SBInet, that you 
think as a total system it is never going to go into effect and 
that the best we can do with it is to take pieces of the 
technology and use them well?
    Mr. Bersin. Mr. Chairman, that is one of the options on the 
table. I was out speaking to our employees in the Office of 
Information Technology today, and I remembered that the first 
trial I had in Federal court in the 1970s was about the 
Baltimore traffic control system in which there was an 
integration of all the technology and the traffic lights in the 
city of Baltimore. The expectation was that based on traffic 
flow, you could direct all the cars in the city. It was a 
horrible integration failure. That would be a piece of cake, 
technically speaking, today.
    So I do not want to say that theoretically at some point 
you could not have the kind of sophisticated technological 
integration that SBInet originally projected. But in the near 
term, the Secretary has concluded, and I agree with her based 
on the advice that we have received, that wholesale integration 
is not a goal that is practicable or that would produce the 
kind of productive results that we would want to see.
    Chairman Lieberman. Let me ask you a final question, which 
is--in some sense you gave a response, but I want to clarify 
it, for myself anyway--whether the murders at the Consulate, 
whether the killing of the rancher, Mr. Krentz, whether other 
attacks on U.S. citizens indicate a change in tactics by the 
Mexican drug cartels, which have generally in the past avoided 
direct attacks on the United States. I would add to that the 
use of the improvised explosive device, which is essentially a 
bomb.
    I think I heard you say that you are not sure. Should we 
worry that CBP personnel, American citizens, and others on this 
side of the border and American interests in locations in 
Mexico will be subject to more violent attacks by the drug 
cartels?
    Mr. Bersin. Mr. Chairman, the answer to the second 
question, should we be concerned, absolutely, and we need to 
take the possibility very seriously. At the same time, in 
response to the first question, we are not sure, and we 
continue to investigate.
    So, for example, while an operating premise might be that 
Mr. Krentz had been killed by someone connected with a 
smuggling outfit, we have yet--and the investigation 
continues--to establish that in fact. But there are hypotheses, 
and certainly we need to take seriously the threat that the 
incidents you reference in Juarez and Nuevo Laredo represent a 
change in policy. We have not seen the killing of an American 
law enforcement person in Mexico since that of Enrique Camarena 
in the 1980s.
    Chairman Lieberman. Right.
    Mr. Bersin. I hesitate to draw the same conclusion, and I 
do not. We need to investigate that because the situation in 
Mexico in terms of where the violence is coming from, the 
street gangs coupled with the cartel wars that are going on, 
make it unclear. But we need to take the possibility and the 
threat very seriously, and we do.
    Chairman Lieberman. I trust that our cooperative 
relationship with Mexican Government and law enforcement 
authorities includes sharing of intelligence so that they would 
be one of the resources we would have in determining whether 
the cartels had taken a turn and decided now to target 
Americans on either side of the border.
    Mr. Bersin. That is correct, Mr. Chairman. The information 
sharing is at a level that we have never experienced before. At 
the same time, given the weaknesses in Mexican law enforcement 
and security apparatus, they understand, just as we do, it is 
very much on a trust-but-verify basis. I suggest the Committee 
may wish in a more confidential setting to receive the briefing 
on exactly what we do know and do not yet know about that 
threat.
    Chairman Lieberman. Thank you, Commissioner. Senator 
McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Bersin, I am not sure if Sheriff Dever of Cochise 
County is here. I think he can provide you with information, 
which at least circumstantially and evidence-wise, shows that 
this murder of Robert Krentz was done by someone who had 
entered this country illegally and very likely involves drug 
trafficking. They have not reached a total conclusion, but 
certainly there are signs that Sheriff Dever will inform us 
about.
    Do you believe that violence has increased or decreased on 
our border in the last year?
    Mr. Bersin. With regard to the so-called spillover from 
Mexico of the mass violence, we have not seen that. We are 
prepared for it, and we understand the risk. But we have this 
anomaly of----
    Senator McCain. Well, let me just interrupt you right 
there. Sheriff Dever and our other law enforcement people will 
tell you that there has been a significant change in the 
behavior of the drug traffickers, and that is that they are 
prone to violence, they are prone to trying to cause accidents 
on the freeway so they can get away, and they have become much 
more aggressive. The sophistication and types of their weaponry 
have dramatically increased. Would you agree with all that?
    Mr. Bersin. I acknowledge that. I do agree with that, and 
that does not gainsay the fact that we have Juarez, the most 
dangerous city in the Western Hemisphere, sitting next to El 
Paso, which is one of the safest cities in America. That does 
not deny everything that my old colleague in law enforcement 
Sheriff Dever has said. We have significant violence that is 
caused by organized crime based in Mexico, yes, sir.
    Senator McCain. Then would that not argue for increased 
enforcement on the border?
    Mr. Bersin. Yes, it does, and we have seen steadily 
increased enforcement, Senator McCain, from March 2009 on.
    Senator McCain. Actually, the budget proposal is a 
reduction in Border Patrol.
    Mr. Bersin. Sir, respectfully, with regard to this year 
compared to next year, the level of Border Patrol agents will 
remain level without a loss in Border Patrol force and 
strength.
    Senator McCain. So violence is increasing, and the Border 
Patrol numbers remain level.
    Mr. Bersin. This is not just about Border Patrol agents 
alone. It is about infrastructure, technology, tactical 
operations, and cooperation with law enforcement--local, State, 
and across the border.
    Senator McCain. And infrastructure that was supposed to 
provide us with surveillance all across the U.S.-Mexico Border 
has now turned out to be, at least in the assessment of the 
Government Accountability Office (GAO), an abysmal failure. So 
that is why Senator Kyl and I, in agreement with every law 
enforcement agency in the State of Arizona, have done what 
Secretary Napolitano asked for when she was Governor of the 
State of Arizona, to send the National Guard to the border 
until we are sure that we have some kind of control over the 
border.
    Look, if you have 241,000 people apprehended just in the 
Tucson Sector of Arizona, if you have intercepted 1.3 million 
pounds of marijuana--and you can cite the statistics as to how 
many are apprehended versus how many get away--does that not 
indicate that our border is not under control?
    Mr. Bersin. Senator McCain, the threats that we face in all 
areas are taken seriously. We have deployed in March 2009, and 
we are preparing to deploy additional resources to the border.
    Senator McCain. And those resources are?
    Mr. Bersin. The threat is appreciated. The National Guard 
is one option that is under consideration, and I suspect the 
Secretary and the Administration will be making that decision 
in the near future.
    Senator McCain. Well, you just said that you are deploying 
additional resources to the border. What are they?
    Mr. Bersin. We have deployed, for example, in response to 
the murder of Mr. Krentz, agents into the immediate area.
    Senator McCain. On a temporary basis.
    Mr. Bersin. On a deployed basis until the threat level has 
resumed an acceptable place.
    Senator McCain. I do not see how, frankly, a situation 
where 241,000 people are apprehended in just one sector, in the 
Tucson Sector, and 1.3 million pounds of marijuana are 
intercepted does not argue for stronger measures to be taken, 
and in the short term, for what Secretary Napolitano asked for 
when she was Governor of Arizona, and that is, to get the 
National Guard to the border.
    By the way, I have often cited the Goldwater Range as an 
example where the Marines and the Border Patrol got together. 
We had a huge problem with illegals coming across and had to 
shut down the missions over the Goldwater Range, and now 
because of their cooperation, it has worked. And it was with 
commercial off-the-shelf capability.
    Let me get to fences for just a second. In San Diego, as 
you are very well aware, there has been construction of triple 
fences, and crime has gone down a great deal in San Diego. Is 
that correct?
    Mr. Bersin. That is correct, and the crossings in that 
particular portion of the sector have decreased dramatically. 
Yes, sir.
    Senator McCain. Does that not argue for double and triple 
fences in urban areas?
    Mr. Bersin. The placement of infrastructure has always 
depended, Senator McCain, on the professionals on the ground 
making their recommendations. So as you know, in the Nogales 
port of entry, you will have significant fences, and in other 
places in El Paso, you will have duplicate fences.
    This is always about a professional judgment about how best 
to direct the traffic and to manage the flow. So I think as the 
Secretary has implemented the intent of Congress, it has been 
done strictly on the advice of our Border Patrol agents and 
other professionals on the ground.
    Senator McCain. Well, I do not want to get into too much 
detail, but obviously the Yuma Sector of our border has 
improved significantly, whereas the Tucson Sector has not. 
Maybe there is a little bit too much autonomy there and not 
enough attention to the lessons learned.
    I see that my time has expired, but I just want to say, Mr. 
Bersin, I wish you luck in your position. This is an issue of 
utmost seriousness. Sheriff Dever and all of the sheriffs in 
Arizona will tell you that there has been a sea change in the 
last couple of years in the behavior of the drug and human 
smugglers. They are more violent, they are more provocative, 
and they fight back. They have little or no regard for the 
people that are doing the human trafficking and carrying the 
drugs. They are now using ultra lights to bring drugs across 
our border. We need UAVs that would be airborne 24 hours a day, 
rather than just during working hours. And people, the citizens 
of our State, are seeing their fundamental rights violated, 
their property being crossed, and their wildlife refuges being 
destroyed. And all of this has been ratcheted up over the last 
couple of years to a point where we are in a real conflict. And 
there is very little doubt that the cartels are becoming more 
brutal, more effective, and better armed and better equipped.
    And so it cries out for action, and it seems to me in the 
short term that action is sending the Guard to the border, 
which has been effective in the past. It would not be the first 
time. And, second of all, implement a package of efforts along 
the lines of what Senator Kyl and I have recommended, which 
includes interoperability of communications with local and 
Federal authorities up to and including Operation Streamline, 
which has been effective in reducing the motivation and numbers 
of people crossing the border because they know that they are 
going to be incarcerated for a period of time.
    And let me just throw one more number at you that is 
alarming, and that is, our law enforcement will tell you that 
17 percent of the people they apprehend today illegally 
crossing our border have committed crimes previously in the 
United States of America. That alone is enough to concern us as 
far as the safety and security of our citizens. I thank you, 
Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCain, very much.
    Senator McCain. By the way, do you have a response to that 
diatribe? [Laughter.]
    Mr. Bersin. Senator McCain, as somebody who has lived and 
worked on the border for more than a quarter of a century, I 
appreciate your sense of urgency, and I have lived and worked 
to combat it for many years and look forward, with your support 
and the support of this Committee, to continue to do so ever 
more effectively.
    Senator McCain. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you. Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.

              OPENING STATEMENT OF SENATOR BURRIS

    Commissioner, I would just like to congratulate you and 
welcome you aboard.
    Mr. Bersin. Thank you, Senator.
    Senator Burris. I recently had the opportunity to travel to 
the Southwest Border and get a close-up look at the work that 
DHS and its component agencies are doing down there. They have 
been fighting a tough battle, and I am grateful for the men and 
women who are working to protect our borders, and I want to 
take my hat off to them and let the American people know that 
it is not an easy position to be in, having visited there and 
seen it firsthand.
    Commissioner, I am deeply concerned about SBInet. I am 
trying to get a clearer understanding of your testimony, which 
states that it is an overall combination of the various 
protections. But I want to know who actually authorized this 
particular contract. And, by the way, if my Boeing people are 
here--and I am not going to slam Boeing yet; they are 
headquartered in my State--but I do not want Boeing or any 
other company taking advantage of the taxpayers' dollars, and 
if they have spent all of this money and we do not have a 
system that works, I want to know why we are continuing to do 
it. My notes say that we spent over $1.2 billion on a system 
that is not working.
    Can you clarify some of that for me, Commissioner?
    Mr. Bersin. Senator Burris, not that this is good news, but 
the expenditure is slightly over $700 million, not----
    Senator Burris. It is not $1.2 billion?
    Mr. Bersin. That is the only good news, that it is not $1.2 
billion. The problem is that the original conception has not 
been delivered. The requirements that had been set forth have 
not been met with regard to an integrated system. And Secretary 
Janet Napolitano, having recognized that, has taken the steps 
that I described both in the written testimony and briefly in 
response to the Chairman's questions to redeploy $50 million 
that had been added to the SBInet coffers, if you will, to 
other technologies, including thermal imaging devices and 
mobile surveillance systems that actually have demonstrated 
utility.
    What the Secretary has also ordered and is in the process 
of being accomplished is an assessment of what are the next 
steps with regard to SBInet. And as I suggested, I think there 
will be an assessment of the one portion on the border in 
Tucson where the system has been in place----
    Senator Burris. Well, pardon me, Commissioner, but this 
SBInet is supposed to cover almost 2,000 miles. We have done 23 
miles initially, and Ajo-1 is only going to do another 30 
miles, and we spent $700 million. Are we planning to try to use 
this on the other 1,900-plus miles that we have to go?
    Mr. Bersin. That will be the conclusion reached after the 
assessment the Secretary is----
    Senator Burris. Why could we not have made the assessment 
up front? I understand Boeing is still working on it. Do you 
not have competition? And then evidently there is an exclusive 
contract here. We have not sought to get any competition to see 
if some other company could even do this better and cheaper. 
Why are we locked into Boeing so deeply in this process?
    Mr. Bersin. The contractual situation and the contract 
management are both matters that offer big lessons, and I hate 
to avail myself of the Chairman's temporary pass. I was not 
present at the creation of this. But I am accountable for it 
now and responsible for it now.
    Senator Burris. Can we cancel the contract with Boeing?
    Mr. Bersin. I am not in a position to render that legal 
judgment, but it is a fair question that you ask.
    Senator Burris. How can you do a pilot program that costs 
$700 million? The pilot evidently is not working, and we are 
expanding now into doing more, and we are not sure that it is 
going to work, but we are going to continue to pay. Taxpayers 
do not have unlimited pockets for Boeing or any other company.
    Mr. Bersin. I understand your frustration and anger, 
Senator.
    Senator Burris. So is that under your purview now, to 
assess what is happening? Or is it the Secretary who has to 
assess the program?
    Mr. Bersin. On the front line, the buck stops with me with 
regard to SBInet.
    Senator Burris. Well, Commissioner, can you find out just 
where the money has gone and where it is going to go in the 
future? We do not have unlimited funds to pour into something 
that is not going to work, regardless of who the corporation 
is. I am trying to find out how they got a contract of that 
magnitude. Mr. Chairman, there ought to be some type of 
investigation into this particular contract. I am deeply 
concerned about how a contract of this magnitude could be 
awarded and no one had tested whether or not it would work. 
There has to be some follow-up here. I do not know where the 
GAO is in reporting on this, but we have to get into just how 
this all took place and what deliverables were supposed to be 
coming out of this contract because that is just a total abuse 
of taxpayers' money.
    Commissioner, is there actually triple fencing on the San 
Diego, California Border?
    Mr. Bersin. In a small portion of the border, you will find 
double and triple fencing in terms of the infrastructure, yes.
    Senator Burris. The single fencing that I saw on the border 
was just a piece of tin metal stretched across the Mexican 
side, and all the trash is dumped onto our side, which we have 
to clean up. It is a garbage pit, and it all drains down toward 
the ocean, which we spend millions of dollars trying to clean 
up. And our Border Patrol says that is just what we have to do. 
Has there been any talk with the Mexican Government about how 
we can work this out?
    Mr. Bersin. Actually, I know this because I am a resident 
of San Diego County, not because I am the Commissioner of 
Customs and Border Protection. The United States helped 
construct a sewage plant in the Tijuana River Valley, and as 
bad as it may have seemed to you, Senator Burris, on your 
visit, it used to be 10 times worse.
    Senator Burris. So we are getting cooperation?
    Mr. Bersin. Yes, sir.
    Senator Burris. We are doing the work, but we are getting 
the cooperation of the Mexican Government. Are there any type 
of penalties for using that as their garbage dump? That is what 
it is. Any help from the Mexican Government?
    Mr. Bersin. We are, Senator.
    Senator Burris. My time has expired, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Burris. We all share 
your frustration and anger about the contract. The GAO has done 
some work on SBInet, and I am glad to talk to you more about 
what more we can do. But at this point, I think with 
Commissioner Bersin coming on now, with his background, I think 
we are counting on him really to give us a direct assessment 
and take action to either terminate the contract or take from 
it what will work. As Senator McCain indicated earlier, it may 
be that the best answer here to this continuing crisis and the 
continuing flow of illegal immigrants into the United States is 
to go back to the old-style fences, double and triple layered--
unless that is topographically impossible in certain areas.
    We are going to move on to the second panel, but I wanted 
to thank you for your testimony today. Look, bottom line from 
what we know and what you have testified today, the flow of 
illegal immigrants across the Mexican Border into the United 
States remains unacceptably high, hundreds of thousands per 
year, even at the reduced rate that we see occurring now. We 
know that the violence in Mexico is just stunning in its scope 
and brutality. And we know and, as you said, have reason to be 
concerned that Americans have been targeted more and that will 
happen more in the future.
    So as you come on, I hope you will make this your No. 1 
concern, and you have the background to really make a 
difference here. This whole operation, I am not saying it is 
easy. If it were easy, we would have solved it long ago. But 
this thing needs to be shaken up, and from your background, I 
think you are somebody who can do it.
    I would also say about my colleagues, Senator McCain and 
Senator Kyl, in their program they put forward yesterday, 
including the request for Federal troop support temporarily at 
the border, I hope that you and the Administration will give 
this request the respect that I would want you to give me if I 
and my colleague from Connecticut were appealing for Federal 
help for a natural disaster that had occurred in our State 
because I do not think most of us in this country can 
appreciate what people in Arizona are living with every day. It 
is just not acceptable, and it is obvious that the State and 
local governments cannot handle it themselves, and we, together 
with our allies and partners in Mexico, have to do a better 
job. So this is a big challenge, but you are a person with the 
background and experience and record, if anybody can, to turn 
it around. And I just urge you to be as tough and direct and 
aggressive as you feel you need to be to get this done.
    Mr. Bersin. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Commissioner.
    Senator McCain, do you want to add anything?
    Senator McCain. No, except to say that I hope you will 
examine Senator Kyl's and my proposal and give us a response as 
to your assessment of our recommendations. We would appreciate 
that. Thank you very much.
    Mr. Bersin. We will, Senator, and thank you.
    Chairman Lieberman. Thanks, Commissioner.
    We have a vote that has just begun. We will go over, vote, 
and come back quickly.
    In the meantime, the hearing is in recess.
    [Recess.]
    Chairman Lieberman. I would ask the witnesses on the second 
panel to come to the table, please, and we will go forward with 
the hearing.
    We are really honored to have here--and I know they came 
some distance--the three participants on this panel: The Hon. 
Dennis Burke, U.S. Attorney for the District of Arizona; the 
Hon. Octavio Garcia-Von Borstel, Mayor of the City of Nogales--
did I get that more or less correct?
    Mr. Garcia-Von Borstel. You did, Senator. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Mayor. It is good to see you 
again. And Larry Dever, Sheriff of the County of Cochise in 
Arizona; great to see you again, Sheriff. I appreciate your 
patience as we went to vote, and we will begin now with U.S. 
Attorney Burke.

 TESTIMONY OF HON. DENNIS K. BURKE,\1\ U.S. ATTORNEY, DISTRICT 
             OF ARIZONA, U.S. DEPARTMENT OF JUSTICE

    Mr. Burke. Mr. Chairman, thank you very much. I have my 
lengthy comments I would like to submit for the record, and I 
would like to focus my oral comments on what we are doing today 
and how it differs from the past.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Burke appears in the Appendix on 
page 67.
---------------------------------------------------------------------------
    Senator McCain, you referenced a few times already that in 
the sector of Tucson, we have confiscated over 1.3 million 
pounds of marijuana in the last year----
    Senator McCain. Could I interrupt you for a second? In your 
position as U.S. Attorney, maybe you could give us a few words 
as to your assessment of the situation and then what you are 
doing. Could you do that?
    Mr. Burke. Sure.
    Senator McCain. I would appreciate that. I think it would 
be helpful for the record.
    Mr. Burke. Yes, the assessment of the situation is, from 
hearing the testimony of Commissioner Bersin and the questions 
earlier, I think the Committee is right on point, that the 
individuals who are involved in trafficking, drugs, and human 
smuggling are more violent than we have seen in the past. We 
deal with more firearms cases than we have in the past. We deal 
with more smugglers carrying firearms and being willing to use 
those firearms. It has an impact on the agents who work in the 
sectors in Arizona, and it has an impact on our prosecutions.
    We have seen an increased interest in smuggling weapons 
from Arizona to Mexico. We have numerous ongoing investigations 
working with the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives (ATF) and local law enforcement with regard to gun 
trafficking headed to Mexico. We have seen an increase in bulk 
cash smuggling. We have increased our cases with regard to 
focusing on that. So you have the drugs and the humans heading 
north, and we are focusing on that. But at the same time, we 
have to focus on the money and the guns heading south. And we 
have seen an increase in all those particular areas.
    My district once had a 500-pound threshold for marijuana 
trafficking. If you in the District of Arizona had 400 pounds, 
those cases were being declined. Why? Because the Federal 
prosecutors in my office were so overloaded with cases that 
they literally were not able to get to those types of cases. 
That threshold is now gone thanks to supplemental funding from 
Congress. We now have over 160 Federal prosecutors working for 
me. That is a 50-percent increase in prosecutors in just over 
the last 3 years. Because of Justice Department funding, I have 
just finished hiring six additional border security prosecutors 
for my Tucson office, very seasoned attorneys, and I am going 
to be receiving authority from the Justice Department in the 
near future to hire additional border security prosecutors.
    So the prosecutors are there. They are on the ground. They 
are experienced, and they are incredibly focused and diligently 
working on these cases. So when it comes to resources, the 
Department has been backing the district. They do so because we 
produce, and we are making a difference. We filed over 3,200 
felony immigration cases in fiscal year 2009. We filed 22,000 
misdemeanor cases in the immigration area. We have increased 
our drug prosecutions by over 100 percent from fiscal year 2008 
to fiscal year 2009. And these prosecution statistics in the 
District of Arizona are also consistent with recent trends 
across the entire Southwest Border.
    From 2007 to 2009, the five Southwest Border districts 
increased their felony caseloads by 42 percent. Indeed, the 
Southwest Border districts file 41 percent of all the Federal 
felony cases in the entire Nation. I speak weekly with my 
counterparts in the other Southwest Border districts. We are 
constantly sharing intelligence, prosecution tips, and trends. 
Indeed, two of the border security prosecutors that I mentioned 
earlier I am hiring from our Texas districts, and they are two 
of the best in the country.
    Aside from the reactive border-related caseloads we handle 
on a daily basis, we are also very involved in a significant 
number of complex, long-term investigations involving 
transnational organized criminal activity, including, as I 
mentioned earlier, drug and firearm trafficking, human 
smuggling, and currency exportation. This reflects the 
Department of Justice's cartel-targeted strategy, and as I 
said, as much as we need to stop the drugs and humans heading 
north, we are focusing more and more than we have in the past 
on stopping the guns and the money heading south. It was 
reflected in Commissioner Bersin's testimony. There is more 
attention in our district devoted to southbound smuggling than 
there has ever been before.
    Our investigative tools are more advanced than just a few 
years back. We are doing 50 percent more wiretap cases than we 
did a year ago. This is in conjunction with the Drug 
Enforcement Administration's (DEA) state-of-the-art wire room 
as part of their multi-agency strike force.
    I mentioned our bulk cash commitment, and we are working 
with ATF, and I would also like to mention that just last week 
in the district we unveiled the indictments in Operation In 
Plain Sight. It was an investigation that was 2 years in the 
making, in which 49 arrests were made, 30 search warrants were 
executed, and 50 vehicles were seized. We targeted a cross-
border human smuggling organization. We removed the entire 
infrastructure of their network. We had Immigration and Customs 
Enforcement (ICE), CBP, Federal Bureau of Investigation (FBI), 
DEA, the Marshals Service, ATF; Arizona Department of Public 
Safety was involved, Phoenix and Tucson Police Departments, and 
the Pima County Sheriff's Office all worked in conjunction on 
that investigation.
    I think that case also highlights the strengthening ties 
that we have been building with Mexican Federal law enforcement 
agencies. The Mexican Federal Police (SSP) arrested one of the 
main targets in that case and executed search and arrest 
warrants simultaneously with our operation in Arizona.
    This level of cooperation and coordination with Mexico is 
unprecedented, and, in fact, for the first time ever, we refer 
port of entry drug-trafficking cases back to Mexico for 
prosecution. So we have drug traffickers who are being 
prosecuted in their own country under their own laws, and the 
sentences are severe: 10 years each in the cases we have so far 
referred.
    Let me finally mention with regard to our contacts and 
relationships and cooperation with Mexico, a few weeks back, 
Attorney General Holder convened a meeting in Arizona with his 
counterpart, the Mexican Attorney General, Auturo Chavez 
Chavez, and the Attorney General included Southwest Border U.S. 
Attorneys and other U.S. Attorneys with drug-trafficking 
organization connections in their districts to work on joint 
cross-border prosecution strategies. So we are making more and 
more advancements than we have ever in the past with Mexico. 
The work of President Calderon, his courageous effort, is being 
reflected in his prosecutors, and it has developed 
relationships and work that we have not ever had in the past. 
In fact, indeed Mexico has been assisting us at the Federal 
level with our efforts to track the horrendous murder of Robert 
Krentz in the Cochise County area.
    So, Mr. Chairman, thank you for the opportunity to give a 
general overview of my comments, and I appreciate the 
opportunity to be here today.
    Chairman Lieberman. Thanks, Mr. Burke. That is a good 
beginning in giving the Committee a sense of the impact of this 
homeland security crisis on the ground in Arizona.
    Mayor, thanks for coming. Again, it is good to see you. 
Your testimony was very important to us last year, and we look 
forward to hearing from you now.

TESTIMONY OF HON. OCTAVIO GARCIA-VON BORSTEL,\1\ MAYOR, CITY OF 
                        NOGALES, ARIZONA

    Mr. Garcia-Von Borstel. Very well, thank you. Chairman 
Lieberman, good morning. Senator McCain, good morning. As you 
mentioned, I am the proud mayor of the City of Nogales, 
Arizona. Before I start with the key issues that I will raise 
with you here today, I want to thank you for this rare 
occurrence, an opportunity to participate in this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Garcia-von Borstel appears in the 
Appendix on page 79.
---------------------------------------------------------------------------
    With that being said, allow me to get to the heart of the 
matter. Gentlemen, Nogales needs your help. Nogales is a 
community that is extremely dependent on the border and our 
neighbors to the south. The ability to cross the border 
effectively, efficiently, and in a secure and safe environment 
is vital.
    Since September 11, 2001, we have all recognized that our 
world is different. We now must look at security at the same 
time that we look at commerce, trade, and tourism. But that is 
also the key point that I would like to make today, that we 
must not lose sight that we are working to secure the homeland 
so that we can conduct our normal lives.
    We have all seen or have experienced an increase in 
violence on border communities. I was deeply saddened recently 
when I heard the news of the deaths of our very own people, 
Americans from the U.S. Embassy in Ciudad Juarez who became 
victims of the drug cartel violence. In fact, I was just at 
that embassy last week, and I met with the sub-Consulate and 
discussed the horror of the situation affecting American 
citizens.
    The assassination of the local rancher in Cochise County is 
evidence that the violence is, in fact, spilling over to the 
United States. Perhaps part of the solution we identified is to 
involve all governments--local, State, and Federal. Although I 
respect and understand it is a Federal issue, the local 
governments have to be able to form part of the strategy 
because, after all, we are the ones who are directly impacted 
the most. I, for one, would like better communication in order 
to better support and address the violence and border 
initiatives.
    To give you an idea, our community has three land ports of 
entry: Morley Gate, which is a pedestrian-only crossing; 
DeConcini, which is a pedestrian, private vehicles, train, and 
bus crossing; and Mariposa, which is our commercial crossing, 
but we also cross pedestrians and private vehicles. Our three 
border stations currently process in excess of 15 million 
people, over 300,000 trucks, and well over 3 million cars each 
year--in a northbound direction. Two-way traffic is 
approximately 30 million people, 600,000 trucks, and over 6 
million cars.
    I want to thank our congressional delegation--in 
particular, Senator McCain, who is with us today, and Senator 
Jon Kyl as well--for their active and continued support for the 
issues that we face in Nogales. And, yes, we are making great 
headway on some very important border issues. For instance, the 
Mariposa port of entry is currently undergoing a major 
reconfiguration, a project funded to the tune of $200 million 
under the American Recovery and Reinvestment Act. This project 
will double, if not triple, our throughput for inspection of 
both commercial and non-commercial traffic at Mariposa. This 
project, which started in September of last year, should be 
completed by 2013. We are currently working with the Arizona 
Department of Transportation and the Federal Highway 
Administration to improve the connectivity from the port of 
entry to the Federal highway system. Additionally, we are 
working with our Mexican counterparts to ensure that necessary 
improvements are made to the Mexican side of Mariposa.
    In recent years, we have seen a clear focus at securing the 
border between the ports of entry. But there has been little 
attention to the ports of entry themselves. I truly believe 
that in order to have a safe and efficient border, you must 
have an effective border. Customs and Border Protection has 
identified some $5 to $6 billion worth of projects on the U.S.-
Mexico Border, yet the budget proposed for fiscal year 2011 
shows only $93 million for one project. Our ports of entry are 
a national asset. However, the budget does not reflect that.
    The violence between drug cartels has certainly created a 
paranoia across both countries and has had a direct impact on 
border communities. Tourists going both south to north and 
north to south have lost confidence and are now afraid for 
their safety when traveling through Nogales. We continue to see 
human trafficking and drug trafficking, I believe, as a result 
of a lack of resources for our border communities.
    Our current wait times in Nogales are well in excess of an 
hour, easily 2 hours or more during peak hours every day. Due 
to long waits, we have seen a dramatic transition from people 
crossing the border in their cars to crossing on foot. But we 
were not ready for this transition, and the increase of 
pedestrian traffic means that there are now wait times to cross 
on foot in excess of an hour. I have brought a copy of a recent 
article that was published in our local newspaper which shows 
the long pedestrian line at the border, and I believe you do 
have a picture of that, Mr. Chairman.\1\
---------------------------------------------------------------------------
    \1\ The photograph referenced by Mr. Garcia-Von Borstel appears in 
the Appendix on page 56.
---------------------------------------------------------------------------
    Chairman Lieberman. Yes, I am going to enter that in the 
record. Thank you.
    Mr. Garcia-Von Borstel. Very well. Thank you, sir.
    At the same time, Secretary Napolitano recently issued a 
press release commemorating the first anniversary of the 
Southwest Border Initiative and touted the great results from 
an enforcement perspective. Yes, the program has seized many 
weapons and stopped many millions of dollars that were being 
laundered and shipped back to Mexico, but at what cost to 
Nogales and all the other border communities? The DHS 
initiative is centered on conducting inspections of trains, 
trucks, and vehicles leaving the United States. The unintended 
consequence and one of the key points that I want to make 
before you today, gentlemen, was not a consideration when this 
initiative was planned and deployed.
    None of the ports of entry at Nogales is equipped to handle 
southbound inspections. CBP lays down a few cones on the road, 
perhaps some jersey barriers, and simply stops every vehicle 
departing from the United States to Mexico. And although 
everyone talks about the random efforts at Nogales, Customs and 
Border Protection has notified us that they are inspecting 
every truck leaving the United States through that port of 
entry. The traffic back-ups on a southbound basis reach well 
over an hour or more during the peak hours.
    The end result, and thus the unanticipated consequence, is 
that people are now crossing less frequently as they have to 
wait 1 or 2 hours coming in and out from our ports of entry.
    Chairman Lieberman. Excuse me for interrupting. To the 
extent that you can, if you can summarize the rest of your 
statement.
    Mr. Garcia-Von Borstel. Very well. I will move over to 
perhaps, respectfully, the recommendations that I would have 
presented before you.
    Chairman Lieberman. Good.
    Mr. Garcia-Von Borstel. If that would be OK, Mr. Chairman.
    Chairman Lieberman. Excellent.
    Mr. Garcia-Von Borstel. Thank you.
    First of all, I would respectfully recommend to staff our 
ports of entry to the capacity that is required.
    Second, provide additional funding in an expedited and 
confirmed manner to our ports of entry.
    Third, DHS needs to come up with a plan to address the 
congestion, safety, and other unintended consequences of the 
southbound inspection program.
    Fourth, find ways to deploy trusted traveler programs for 
southbound traffic. For instance, the Secure Electronic Network 
for Travelers Rapid Inspection (SENTRI) program that is working 
so well for northbound travelers should be considered for 
southbound traffic as well.
    Finally, there needs to be better coordination and sharing 
of information and intelligence with Mexico to help reduce the 
duplication of efforts and to ensure that we maximize the 
return of investment. Include all governments--local, State, 
and Federal--in these efforts to increase the success of 
tackling the drug wars at the border.
    Mr. Chairman, Senators, Senator McCain, again let me thank 
you for the opportunity to be here to communicate our issues 
and needs. Please be assured that for me and Nogales, security 
and facilitation are our top priorities, as that is essentially 
our livelihood.
    I thank you for your attention, and I look forward to your 
questions and comments.
    Chairman Lieberman. Thanks, Mayor. That was an excellent 
statement, and we appreciate your recommendations also.
    The last person on the panel, Sheriff Larry Dever, thanks 
for making the trip. We remember your testimony very well from 
last year, and we look forward to an update this morning.
    Obviously, we would be particularly interested in, though 
it is an open investigation, what you can tell us about the 
murder of Robert Krentz.

  TESTIMONY OF LARRY A. DEVER,\1\ SHERIFF, COUNTY OF COCHISE, 
                            ARIZONA

    Mr. Dever. Thank you, Senator Lieberman, and Senator 
McCain. It is a privilege and a pleasure to be here. We did 
meet a year ago to discuss border violence in Phoenix, Arizona.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dever appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    You know, I have heard a lot of numbers here today, and I 
have a hard time wrapping my mind around all those numbers. But 
I can tell you all of them added together came up with a great 
big fat zero for Robert Krentz. And it comes up with a big fat 
zero for the people living out in the eastern part of Cochise 
County right now who suffer daily burglaries, thefts, home 
invasions, and for the couple that was tied up in their home 
and left forever had it not been fortunate enough for somebody 
to come by, all their stuff stolen. The guy who gave aid to a 
couple of illegals and was tied up, duct-taped in his own home, 
managed to get his tongue free from the duct tape around his 
mouth and dial 911 on his cell phone with his tongue. I can 
tell you stories about people who have lived out there for 3 or 
4 years, one who has been burglarized 18 times. And it is a 
vast, large area.
    The murder of Robert Krentz was particularly senseless. My 
lead detective on the case, who has seen some gruesome murders, 
while this one was not unnecessarily gruesome, just the 
circumstances, and she has dealt with all kinds of horrible 
things, brought her to tears because of the senseless nature of 
the whole thing.
    So I cannot tell you a lot specifically about the 
investigation, although we have made great progress beyond what 
I had initially hoped we would. I can tell you that with 
surety--I have been challenged on this. How do you know he was 
an illegal alien or a drug smuggler? Mr. Chairman, Mr. McCain, 
it is a 35,000-acre remote cattle ranch. There are jackrabbits, 
rattlesnakes, and a few cattle grazing on that barren pasture. 
Illegal aliens and drug smugglers are out there, and that is 
it. This was not somebody walking to Walmart to shoplift 
something.
    So that said, we do know and have reason to believe that 
this man was a scout for a drug-smuggling organization, and 
that is about the extent that I can talk to you about what we 
know about who this individual is.
    It was said earlier--there was a term used about people 
flowing across the border. I can tell you there was a time that 
was the case. But today the people who are crossing the border 
illegally are led, and they are led by very ruthless, armed, 
and well-equipped individuals who are prepared to do whatever 
is necessary to protect their financial interests in that 
smuggling operation.
    A few years ago, we would jump loads of dope on the fence. 
People would just give it up and run. The people who entered 
the country illegally were coming on their own and then looking 
for rides. Today everything is much more organized, much more 
dangerous, and much more dire.
    I mentioned the scouts. The scouts sit on mountaintops, 
high places with radio communications, and they are armed, and 
they set up little camps, and they simply relay via radio the 
location of the Border Patrol or ICE or sheriff's deputies who 
are working in the area, and that is how they defeat the law 
enforcement presence. And they are very good at it. And 
speaking of communications, they are better equipped than we 
are, certainly, in many cases using encrypted radio 
transmissions.
    After September 11, 2001, all the language that came out in 
grant funding and this talk about the need to partner with 
State and local agencies, the Federal Government's need to 
partner in order to better protect our homeland, included 
language about the need for interoperability, referring to 
radio communications and hard land-line communications. In our 
pursuit of the shooter of Robert Krentz, we had State 
Department of Corrections dog-tracking teams, ICE agents, 
sheriff's deputies, and two Border Patrol sector 
representatives who could not talk to each other. And none of 
us could talk with each other. That is inexcusable. And until 
that problem is resolved, all of our law enforcement efforts, 
no matter how well coordinated, are going to have a soft under 
belly, and the bad guys are going to continue to win.
    Senator McCain mentioned that 17 percent of the people 
captured crossing the border are criminal aliens, people who 
have previously committed crimes in this country. That number 
comes from the Douglas Station of the Tucson Sector of the 
Border Patrol. I confirmed that before I came here. That means 
that of all those millions of people, the hundreds of thousands 
of people that enter here, the bad guys keep coming, no matter 
whether the apprehension rates rise or fall, the numbers of 
criminal aliens rise.
    That, gentlemen, is the threat to our homeland security in 
this country. Catastrophic events are of great concern, and the 
vulnerability at the border for crossing materials and people 
with that intent, but the daily crossing of criminal minds 
arriving in communities throughout this country, throughout 
this entire Nation, is the real threat to our peace and 
harmony.
    There are a thousand other things I would like to talk 
about. My time is up, and I will yield to questions.
    Chairman Lieberman. Thanks very much, Sheriff. Thanks for 
trying to describe the impact of this crisis on people who live 
in the area because as I said earlier, I do not think people 
around the rest of the country appreciate it--people on your 
property, people burglarizing, and then, of course, worse. And 
what you describe as a change is significant, which is it is 
not largely what it has been before, as you see it, which is a 
movement of illegal immigrants. This is now a movement which is 
being led by armed individuals who are protecting a business, 
basically, and human smuggling.
    Let me ask each of you whether I am correct in concluding 
that--and let us take a year ago when we happen to have been in 
Arizona holding the hearing--this situation along the border 
and the spillover of violence is worse today than it was a year 
ago. Would you agree with that, Sheriff?
    Mr. Dever. Absolutely. And there is reference after 
incident after case to verify and prove that, and we could talk 
about them all day. I would just like to emphasize that it is 
worse, and it is getting worse. And I hope you understand, I 
hope Congress can wrap their minds around the idea and the 
concept, and the President and this Administration, if we do 
not get this right this time, when are we and how will we?
    You know, 1997 was my first testimony before Congress about 
border violence. Ten years prior to that, the Tucson Sector 
Chief of the Border Patrol was quoted as saying, ``Congress has 
mandated we get control of our border, whether it is illegal 
aliens, narcotics, terrorists, whatever. And that is what we 
are going to do.''
    So here we are 23 years later, and how many chances, when 
is momentum ever going to gather again? What event will it take 
to cause us to finally take action and bring this to a stop?
    Chairman Lieberman. Well, those words should echo in our 
minds because whatever we have done is obviously not working, 
and the problem, which you live with every day, is continuing.
    Mayor, is it worse today than a year ago?
    Mr. Garcia-Von Borstel. I would certainly echo the 
sheriff's comments, and I would confirm that, yes, sir. 
Previously, Senator McCain mentioned there has been 22,000 
killings in Mexico. It is a full-blown war, and we need to do 
all the diligence we can to make sure that we prevent that 
violence from continuing to spill over the border.
    Chairman Lieberman. Mr. Burke.
    Mr. Burke. Mr. Chairman, I would agree, although I would 
also add that in some respects some of the steps that have been 
taken on the border have led to increased violence. These are 
criminal organizations competing over turf and routes and so 
forth. And as the sheriff mentioned, in the past there might 
have been a flow of people who would come back and forth across 
the border. Now those routes are much more limited, and they 
are controlled by particular organizations. And they are much 
more violent organizations, and they are taking it out on each 
other. And they are also taking the opportunity because of the 
tightening in certain spots to actually steal another 
organization's drugs or humans. But what we see a lot of in the 
Phoenix area are drug rip-offs or human rip-offs where an 
organization, instead of having a connection to Mexico to bring 
up drugs or humans, will just get a sense of some other 
organization having a drop house of drugs and humans and will 
go do a violent rip-off of that other organization.
    So that is a new phenomenon in the last couple years. You 
did not see that 5 to 10 years ago. Now we have an epidemic 
amount of that in the Phoenix area.
    Chairman Lieberman. Let me ask you this question from a law 
enforcement point of view. Obviously, we all admire President 
Calderon of Mexico for taking on the drug cartels, and I infer 
from your answer that part of what is happening now is that the 
violence in Mexico is partially the cartels turning on people 
in government, local or regional or higher, but also the 
cartels fighting each other because the turf has been 
constricted by the government. Does that continue to be a 
reality?
    Mr. Burke. I believe that is correct, Mr. Chairman. We have 
seen that in Arizona with regard to how the cartels battle over 
their routes. It is evident in our conversations with the PGR. 
The PGR is the Attorney General of Mexico. It is reflected in 
our conversations with them as to what they are dealing with.
    But I will say--and as I said with regard to President 
Calderon--that the PGR, the people we are dealing with, are 
unbelievably courageous for what they are taking on.
    Chairman Lieberman. Yes. I agree, it is a real tribute to 
them. You just made a point that, again, I want to emphasize. 
Part of the way in which the violence does come over the border 
from Mexico is with the cartels competing for the pathways 
north.
    Mr. Burke. That is correct.
    Chairman Lieberman. And you see it there.
    Incidentally, just to state for the record, at an earlier 
hearing, we had a representative from the FBI, and he told the 
Committee that the Mexican drug cartels are the No. 1 organized 
crime threat in America today, obviously not just at the 
border, but in cities from Anchorage, Alaska, to Hartford, 
Connecticut, and pretty much everywhere in between.
    Again, from a law enforcement point of view, you would 
think at some point, as the government in Mexico is steadfast 
and really courageous in continuing this battle not to yield 
control of much of the country to criminal elements, that we 
would turn a corner and the violence would begin to recede. But 
that has not happened yet. So I would ask you and the sheriff 
about that because you are from law enforcement. Can we hope 
for such a turning point, Mr. Burke, that the good guys will 
win here?
    Mr. Burke. I do not know at this stage and this juncture, 
Mr. Chairman. I can say that the steps we are taking and the 
cooperation, the partnerships we have with Mexico are the best 
we have ever had. I think the concern by a lot of officials in 
law enforcement is this is a window of opportunity that we only 
have with President Calderon.
    Chairman Lieberman. Yes. Sheriff, what would you say?
    Mr. Dever. Well, there are so many unknowns. What we do 
know is that the population in Mexico is growing very rapidly, 
and, therefore, the financial pressures and temptations 
increase in conjunction with that. All of that produces a 
future threat to this country as well. I do not know, if we 
cannot get our arms wrapped around the violence in our own 
country, why we would expect Mexico should be able to do it 
before we do.
    So I think we do need to continue to work together. Mr. 
Burke is correct. Cooperation is better than ever before. It is 
still lacking in some areas, but improvement is always on the 
horizon, and we will continue to work to that end.
    Chairman Lieberman. Thanks. My time is up. Senator McCain.
    Senator McCain. Following up on the Chairman's line of 
questioning, do you believe that we can secure the border?
    Mr. Dever. Absolutely, sir. It can be done. You know, when 
the Minutemen were in Cochise County in April 2005, they were 
there for 30 days. It was a bunch of guys with gray hair and 
most were old fat guys like me, but in the section of the 
border where they deployed 24/7 for 30 days, not a single 
crossing occurred. It can be done. It takes political will, and 
it takes the proper strategy and a proper mix, as has been 
discussed here today, of people and technology to include some 
serious aerial assets to bring that under control.
    Senator McCain. Mr. Burke.
    Mr. Burke. Yes, sir, I do believe so. It is a tough 
challenge. I think the Chairman had said it is not a simple 
problem, so it is not going to be a simple solution. And we 
have seen where we have tightened in certain areas, where there 
has been effective fencing, they have gone to other steps. I 
think you made a reference earlier to the ultra lights. That is 
a new method that they are using to bring drugs over. We have 
never seen that before. We have seen an emergence of tunneling. 
So their only limitation is their own creativity. They are 
sophisticated criminal organizations, and they are going to 
continue to operate as long as they can make money doing this.
    Senator McCain. Mayor, what percentage of the City of 
Nogales, Arizona, is Hispanic?
    Mr. Garcia-Von Borstel. Ninety-eight percent.
    Senator McCain. How do the citizens of Nogales, Arizona, 
feel about this issue?
    Mr. Garcia-Von Borstel. Senator McCain, I think we all 
recognize there is a desperate need to secure the border. It 
has been very frustrating, and to be quite frank with you, it 
has been very scary to live on the border.
    We need your support, and let me just lay it on the table. 
We are willing to do our part and work diligently with our 
Federal and State governments to make sure that the border is 
secure and build confidence back to our constituents and our 
tourists.
    Senator McCain. Mr. Burke, this Operation Streamline seems 
to have had a beneficial effect. For the record, that is 
illegal border crossers are incarcerated for 15 to 60 to 90 
days after apprehension. How important do you think that 
methodology is in discouraging illegal immigration?
    Mr. Burke. Senator, I think it has been an effective 
program. In our Tucson office, we process about 70 individuals 
a day. In Yuma, we process about 40. According to CBP, their 
records on recidivism are effective with regard to Streamline. 
That said, for all the programs and all the activity that goes 
on, it is one small element of an overall program. On any given 
day, 700 to 1,100 people are arrested in the Tucson Sector by 
the Border Patrol, and Streamline processes 70 of them. So it 
is still just a small percentage of the overall amount of 
people that are crossing any day, but it has been effective.
    Senator McCain. How do you decide?
    Mr. Burke. It is a geographic determination made by the 
Border Patrol, and they target a particular geographic area, 
and those individuals are brought in by that determination, and 
then we give, obviously, priority for people with records, and 
that is a determination that is made every day by the Border 
Patrol and working with our prosecutors.
    Senator McCain. My understanding from a letter from Judge 
John Roll is that we, in Arizona, would like to see an 
additional magistrate and also an increase in physical 
infrastructure that could handle an increase in the number of 
people who would be subject to incarceration. Is that correct?
    Mr. Burke. I am not aware of Judge Roll's letter. I am 
aware of Judge Roll's concerns about his physical 
infrastructure capacity to take on a larger Streamline program. 
That is a major concern of his.
    I do know that in the Tucson district court, the increased 
magistrates have helped considerably with regard to our ability 
to prosecute cases.
    Senator McCain. I was struck by what you mentioned, the 
previous rules where anything under 500 pounds of marijuana was 
not prosecuted?
    Mr. Burke. That is correct.
    Senator McCain. Under 500 pounds.
    Mr. Burke. That is correct.
    Senator McCain. Sheriff Dever, you have been sheriff since 
1996.
    Mr. Dever. Yes, sir.
    Senator McCain. Maybe you could give us a little 
perspective. We all know about the terrible tragedy of the 
Krentz family. What are people being subjected to that, 
frankly, citizens in the rest of the country are not? Has that 
deteriorated over time? And, clearly, the U.S. Government has 
an obligation to protect people's lives and property. Is that 
obligation being fulfilled down in Cochise County?
    Mr. Dever. From a criminal activities standpoint, I think 
most disturbing has been the number of home invasions versus a 
burglary, when people are actually at home watching television 
or in bed or whatever and somebody breaks into their home, 
which obviously, predictably, will lead ultimately to some kind 
of conflict, physical confrontation and one side loses. Those 
home invasions have been increasing very rapidly.
    With the burglary problem, there is an ebb and flow. Most 
of the home burglaries we have in the eastern part of the 
county actually are southbound traffic, smugglers who have 
hauled their contraband north, dropped it off to the 
transportation, and are headed back south and steal guns, 
jewelry, and cash and then just hop back across the border.
    So you get a picture in your mind. These are people who 
successfully crossed the border carrying backpacks, defeated 
the enforcement effort, hauled it many miles north, and then 
are going back south and committing additional crimes.
    So I have said for a long time that the situation at the 
border today is if you want to cross the border, you will 
ultimately succeed. And until that changes, we are going to 
continue to face the kinds of conflict and confrontation and 
death and carnage that comes with it.
    Senator McCain. I understand recently there was a crackdown 
and coordination of different enforcement agencies of a 
transportation network where illegals were in vans and being 
transported up to Phoenix and from Phoenix to all parts of the 
country. Can you tell us the extent of that network, how far-
reaching they were, how many people they were transporting, and 
how sophisticated an operation it was?
    Mr. Burke. Senator, they were transporting thousands of 
individuals, and what would happen is that the crossers would 
go past a port of entry somewhere on the Arizona-Mexico Border 
and have information that they received from Mexico, which was 
part of the criminal organization, to either go to a spot in 
Nogales or to work their way up to Tucson where they would be 
picked up by shuttle vans that were part of the criminal 
organization and transported up to the Phoenix area, which 
serves as a hub for the network for the entire country. And so 
this spread out into the east. The investigation led us to 
North Carolina, Tennessee, Illinois, and throughout the 
country. And as I referenced in my testimony earlier, we ended 
up arresting 49 individuals who were involved in this 
organization, seized over 50 of their vehicles, and had 
tremendous cooperation from Mexico with regard to targeting and 
arresting the individuals who were involved in Mexico. They 
would assist the individuals in getting them lined up as to 
where they would go in Arizona to find their shuttles.
    Senator McCain. Were they transporting drugs as well?
    Mr. Burke. No, there was no evidence of that. Based on that 
question, Senator, let me indicate also that the plazas--the 
areas of just the northernmost part of Mexico on the Arizona 
Border are referred to as ``plazas.'' Those are controlled by 
the drug-trafficking organizations. They determine who can come 
back and forth through that area. And so when human smuggling 
operations that are distinct from the drug trafficking 
organizations come through there, they are usually paying some 
kind of tax to the drug traffickers. So these organizations 
were human smuggling organizations. They were not drug 
trafficking organizations. But at some point or another, they 
probably had some connection to a drug-trafficking organization 
because they had to pay a tax to get in.
    Senator McCain. It seems that we have a lot of work to do. 
Could I just finally ask your opinion, do we need the National 
Guard on the border?
    Mr. Burke. As Commissioner Bersin said, I know the 
Administration is evaluating that. There was success with 
Operation Jump Start in Arizona in the past, but I know from 
where I was at that time when those decisions were made, they 
were pretty complex. They involved a lot of input from the 
Department of Defense and Customs and Border Protection with 
regard to defining the missions and so forth. So I know it is 
under evaluation. I know there was a lot of success with 
Operation Jump Start, and I saw the impact specifically, 
directly in Arizona.
    Senator McCain. You would agree we need more personnel on 
the border?
    Mr. Burke. I always support more personnel on the border, 
Senator.
    Senator McCain. Mr. Dever.
    Mr. Dever. The National Guard has been on the top of my 
list for a long time, clear back in 1998 when this first really 
took off, and I asked our governor to deploy the Guard. She did 
not. I asked Governor Napolitano to deploy the Guard when she 
was governor of Arizona. She did not. Just a year ago, I had a 
face-to-face meeting with Secretary Napolitano and asked her if 
deploying the Guard on the border was still on the DHS table. I 
was informed that it was, and it was a matter of deciding a 
specific mission and number of resources. That was a year ago.
    Senator McCain. And the fact is you informed me, and others 
have informed me, that a person in uniform on the border has a 
strong psychological impact on the criminal elements in Mexico. 
Is that correct?
    Mr. Dever. That is correct, and it is true in much of Latin 
America. I lived for 2 years in Central America, and the local 
law enforcement has very little effect, if it exists. But 
people have a very deep respect and often a fear of the 
military in those countries. And so the military presence 
creates a whole new level of deterrent just by being visible in 
the culture and the mind-set of the people coming north.
    Senator McCain. Mayor Garcia-Von Borstel.
    Mr. Garcia-Von Borstel. Yes, Senator, I would favor the 
Guard at the border. However, I would ask for them not to 
disturb the quality of life of our community. But probably even 
more so I would support allocating more funds to CBP to have 
more agents at the facilities as well, for them to be more 
efficient with legal crossings.
    Senator McCain. Well, I thank the witnesses, and I thank 
you, Mr. Chairman, for your patience and for holding this 
hearing, for coming to Arizona as you did a year ago, and for 
your commitment and concern for the people of my State, but 
also for the people of this Nation. As Dennis Burke just 
pointed out, there was a network that reached all over America 
that they were recently involved in cracking down on, and so 
this is not just an Arizona issue. I think it is a national 
issue and a homeland security issue, and I appreciate your 
involvement and commitment on the issue. Thank you.
    Chairman Lieberman. Thanks, Senator McCain. Obviously, you 
have helped to motivate the Committee, but it really is our 
responsibility. This is a homeland security problem, and it is 
as critical as any we have at this moment in terms of its 
impact day to day on people's lives.
    We are going to stay involved in this, and we will do 
periodic hearings as they are productive and they make sense. 
But I do not want to come back again a year from now and have 
witnesses I really respect and trust tell me that things have 
gotten worse. That is why I think the request for the National 
Guard that my two colleagues from Arizona have made makes 
sense, just to try it, because I think it is common sense that 
the more people you have, the less likely it is going to be 
that this kind of bad behavior, unacceptable, societally 
destructive, sometimes deadly behavior, is going to go on.
    Incidentally, a very small point, but we have focused in 
one of our interim hearings on what we could do with southbound 
traffic inspections, and at the advocacy of this Committee, the 
appropriators increased the number of CBP personnel at the 
ports of entry southbound. For some reason, the fiscal year 
2011 budget submission proposes cutting funding for 50 
positions that are now involved in southbound inspections. And 
I just want to assure you that the Committee is going to be 
communicating with both the Administration and the 
Appropriations Committee to say that would be a very serious 
mistake.
    But, my thanks to you for coming up here. You make it real, 
and thank you for doing everything you can to uphold the rule 
of law, really, and trying to provide a decent environment in 
which the people of the State and the community and the county 
can live, which is no more than anybody in the rest of the 
country wants.
    So, with that, we will leave the record of the hearing open 
for 15 days for additional statements or questions. I am very 
grateful for what you have done. I pray for your success as you 
go back home, and, again, I thank Senator McCain for his 
persistent leadership on this critical issue.
    The hearing is adjourned.
    [Whereupon, at 1:13 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7327.001

[GRAPHIC] [TIFF OMITTED] T7327.002

[GRAPHIC] [TIFF OMITTED] T7327.003

[GRAPHIC] [TIFF OMITTED] T7327.004

[GRAPHIC] [TIFF OMITTED] T7327.005

[GRAPHIC] [TIFF OMITTED] T7327.006

[GRAPHIC] [TIFF OMITTED] T7327.007

[GRAPHIC] [TIFF OMITTED] T7327.008

[GRAPHIC] [TIFF OMITTED] T7327.009

[GRAPHIC] [TIFF OMITTED] T7327.010

[GRAPHIC] [TIFF OMITTED] T7327.011

[GRAPHIC] [TIFF OMITTED] T7327.012

[GRAPHIC] [TIFF OMITTED] T7327.013

[GRAPHIC] [TIFF OMITTED] T7327.014

[GRAPHIC] [TIFF OMITTED] T7327.015

[GRAPHIC] [TIFF OMITTED] T7327.074

[GRAPHIC] [TIFF OMITTED] T7327.016

[GRAPHIC] [TIFF OMITTED] T7327.017

[GRAPHIC] [TIFF OMITTED] T7327.018

[GRAPHIC] [TIFF OMITTED] T7327.019

[GRAPHIC] [TIFF OMITTED] T7327.020

[GRAPHIC] [TIFF OMITTED] T7327.021

[GRAPHIC] [TIFF OMITTED] T7327.022

[GRAPHIC] [TIFF OMITTED] T7327.023

[GRAPHIC] [TIFF OMITTED] T7327.024

[GRAPHIC] [TIFF OMITTED] T7327.025

[GRAPHIC] [TIFF OMITTED] T7327.026

[GRAPHIC] [TIFF OMITTED] T7327.027

[GRAPHIC] [TIFF OMITTED] T7327.028

[GRAPHIC] [TIFF OMITTED] T7327.029

[GRAPHIC] [TIFF OMITTED] T7327.030

[GRAPHIC] [TIFF OMITTED] T7327.031

[GRAPHIC] [TIFF OMITTED] T7327.032

[GRAPHIC] [TIFF OMITTED] T7327.033

[GRAPHIC] [TIFF OMITTED] T7327.034

[GRAPHIC] [TIFF OMITTED] T7327.035

[GRAPHIC] [TIFF OMITTED] T7327.036

[GRAPHIC] [TIFF OMITTED] T7327.037

[GRAPHIC] [TIFF OMITTED] T7327.038

[GRAPHIC] [TIFF OMITTED] T7327.039

[GRAPHIC] [TIFF OMITTED] T7327.040

[GRAPHIC] [TIFF OMITTED] T7327.041

[GRAPHIC] [TIFF OMITTED] T7327.042

[GRAPHIC] [TIFF OMITTED] T7327.043

[GRAPHIC] [TIFF OMITTED] T7327.044

[GRAPHIC] [TIFF OMITTED] T7327.045

[GRAPHIC] [TIFF OMITTED] T7327.046

[GRAPHIC] [TIFF OMITTED] T7327.047

[GRAPHIC] [TIFF OMITTED] T7327.048

[GRAPHIC] [TIFF OMITTED] T7327.049

[GRAPHIC] [TIFF OMITTED] T7327.050

[GRAPHIC] [TIFF OMITTED] T7327.051

[GRAPHIC] [TIFF OMITTED] T7327.052

[GRAPHIC] [TIFF OMITTED] T7327.053

[GRAPHIC] [TIFF OMITTED] T7327.054

[GRAPHIC] [TIFF OMITTED] T7327.055

[GRAPHIC] [TIFF OMITTED] T7327.056

[GRAPHIC] [TIFF OMITTED] T7327.057

[GRAPHIC] [TIFF OMITTED] T7327.058

[GRAPHIC] [TIFF OMITTED] T7327.059

[GRAPHIC] [TIFF OMITTED] T7327.060

[GRAPHIC] [TIFF OMITTED] T7327.061

[GRAPHIC] [TIFF OMITTED] T7327.062

[GRAPHIC] [TIFF OMITTED] T7327.063

[GRAPHIC] [TIFF OMITTED] T7327.064

[GRAPHIC] [TIFF OMITTED] T7327.065

[GRAPHIC] [TIFF OMITTED] T7327.066

[GRAPHIC] [TIFF OMITTED] T7327.067

[GRAPHIC] [TIFF OMITTED] T7327.068

[GRAPHIC] [TIFF OMITTED] T7327.069

[GRAPHIC] [TIFF OMITTED] T7327.070

[GRAPHIC] [TIFF OMITTED] T7327.071

[GRAPHIC] [TIFF OMITTED] T7327.072

[GRAPHIC] [TIFF OMITTED] T7327.073

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
